           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       INTERIM AUDIT OF THE
       STATE OF CALIFORNIA
        FOR FISCAL YEAR 2010


    FEBRUARY 2011    A-77-11-00009




  MANAGEMENT
ADVISORY REPORT
                                               Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d
in ve s tig a tio n s , we ins p ire p u b lic c o n fid e nc e in th e in te g rity a n d s e c u rity o f
S S A’s p ro g ra m s a n d o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d
a b u s e . We p ro vid e tim e ly, u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to
Ad m in is tra tio n o ffic ia ls , Co n g re s s a n d th e p u b lic .

                                              Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive
u n its , c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). The m is s ion o f th e OIG,
a s s p e lle d o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d
     p ro p o s e d le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s
     a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d
     o f p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e
     re vie ws .

                                                Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d ,
wa s te a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n
e n viro n m e n t th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e n c ou ra g in g
e m p lo ye e d e ve lo p m e n t a n d re te n tio n a n d fo s te rin g d ive rs ity a n d
in n o va tio n .
                                        SOCIAL SECURITY
MEMORANDUM

Date:      February 23, 2011                                               Refer To:

To:        Chris Molander
           Senior Advisor
           Office of Budget, Finance and Management

From:      Inspector General

Subject:   Management Advisory Report: Interim Audit of the State of California for
           Fiscal Year 2010 (A-77-11-00009)


           This report presents the Social Security Administration’s (SSA) portion of the interim
           audit of the State of California for the Fiscal Year (FY) 2010. Our objective was to
           report internal control weaknesses, noncompliance issues, and unallowable costs
           identified in the interim audit to SSA for resolution action.

           The California State Auditor issued the interim report to communicate preliminary
           findings discovered while conducting the single audit of the State of California for
           FY 2010. The interim report was issued pursuant to guidance issued by the Office of
           Management and Budget (OMB) in June 2010, encouraging auditors to communicate
           promptly any identified internal control deficiencies to management. By encouraging
           prompt communication, OMB intends for recipients, including States, to correct these
           findings as soon as possible to ensure proper accountability and transparency for
           expenditures.

           Due to issuing the interim report prior to completing the single audit, the California State
           Auditor has not finalized internal control and compliance work. In addition, the
           Department of Health and Human Services (HHS) has not conducted its desk review.
           HHS will conduct a desk review of the single audit when it is finalized. We will notify
           you when the results are received if HHS determines that audit did not meet Federal
           requirements.

           In reporting the results of the interim audit, we relied on the internal control and
           compliance work performed by the California State Auditor and the forthcoming reviews
           by HHS. We conducted our review in accordance with the Council of the Inspectors
           General on Integrity and Efficiency’s Quality Standards for Inspections.
Page 2 – Chris Molander


For audit purposes, OMB assigns Federal programs a Catalog of Federal Domestic
Assistance (CFDA) number. SSA’s Disability Insurance (DI) and Supplemental Security
Income (SSI) programs are identified by CFDA number 96. SSA is responsible for
resolving findings reported under this CFDA number.

The California Disability Determination Services (DDS) performs disability
determinations under SSA’s DI and SSI programs in accordance with Federal
regulations. The DDS is reimbursed for 100 percent of allowable costs. California’s
Department of Social Services (DSS) is the DDS’ parent agency.

The interim audit reported that DSS could not substantiate $197,000 of payroll
expenditures it charged to the DI program for four employees. Specifically, DSS did not
distribute the payroll expenditures of these employees to the DI program using the
actual time spent working on activities related to the DI program. Instead, DSS used
percentages to distribute the payroll expenditures based on a time study that occurred
before January 2009, which DSS was unable to provide documentation (Attachment A,
Page 1). The corrective action plan indicated that DSS verified that the payroll
expenditures charged to the DI program were valid. The corrective action plan also
indicated that, as of October 25, 2010, DSS staff began completing monthly employee
time reports that reflect the actual activities the employees are performing
(Attachment A, Page 1). 1

We recommend that SSA verify that the $197,000 in payroll expenditures allocated to
the DI program were appropriate and, if not, recover any unallowable costs.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (816) 221-0315, extension 1537.




                                                 Patrick P. O’Carroll, Jr.

Attachments




1
 In a November 2010 report, SSA OIG, Management Advisory Report: Single Audit of the State of
California for the Fiscal Year Ended June 30, 2009 (A-77-11-00002), we recommended that SSA ensure
payroll costs distributed to the California DDS were supported by personnel activity reports when required
by OMB Circular A-87. Therefore, we will not repeat the recommendation in this report.
Attachment A
  Page 1 of 1
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
